V

ii

Supreme Court, U S.
FILED

ion
OFFICE OF THE CLERK

IN THE UNITED STATES SUPREME COURT

RICHARD C. CURRAN, ..
APPELLANT

'

NO.

-l

-bb b

V.
COMMONWEALTH OF PA,et,al .
RESPONDENTS

i

*
f

PETITION FOR WRIT OF CERTIORARI

t.

i

\
I

- -■?

QUESTION(S) PRESENTED
DID, PRESIDENT JUDGE WILLIAM HARVEY WIEST ABUSE HIS AUTHORITY BY RECUSING THE
ENTIRE NORTHUMBERLAND COUNTY COURT OF COMMON PLEAS FROM HEARING ANY OF MY
CASES AND FAILING TO SEND THE PENDING CASES TO THE PA SUPREME COURT FOR RE­
ASSIGNMENT? WIEST RECUSED THE COUNTY IN 2014.
DID PRESIDENT JUDGE WILLIAM HARVEY WIEST VIOLATE THE US CONSTITUTION 14th
AMENDMENT SECTION 1 DUE-PROCESS BY NOT SENDING THE PENDING CASES FOR RE­
ASSIGNMENT TO THE PA SUPREME COURT?
SEE EXHIBITS A.5, A.6,A.l & A.2 WHICH PROVE THE CASES WERE NEVER RE-ASSIGNED LIKE HIS
LAW CLERK CLAIMED THEY WOULD BE! FURTHERMORE, A.6 EXHIBIT SHOW'S HE IN FACT
RECUSED THE ENTIRE COUNTY FROM HEARING ANY OF MY CASES?
WIEST, HAD RECUSED THE ENTIRE COUNTY FROM HEARING ANY OF MY CASES & FAILED TO
SEND ALL CASES FOR RE-ASSIGNMENT TO THE PA SUPREME COURT WHICH VIOLATED JUDICIAL
CANONS# 2A & B, #3 A.2,3,4,&5 #3 B. 1 &2 MOREOVER, CANON# 3(l)(a) DISQUALIFICATION.
AGAIN, WIEST DISQUALIFIED HIMSELF & FAILED TO SEND ALL PENDING CASES FOR RE­
ASSIGNMENT TO THE PA SUPREME COURT! SEE EXHIBITS A.5, A.6, A.l, & A.2
DID, WIEST'S ACTIONS VIOLATE MY EQUAL PROTECTION RIGHTS WHICH ARE CONTAINED IN
THE 14th AMENDMENT? (BY NOT SENDING THE CASES FOR RE-ASSIGNMENT).
DID, WIEST'S ACTIONS ALSO DENY ME PROCEDURAL DUE PROCESS; WHICH I AM ENTITLED TO?
BY, NORTHUMBERLAND COUNTY COURT OF COMMON PLEAS DENYING ME MY ENTIRE
CRIMINAL FILE VIOLATE MY DUE-PROCESS AS DEFINED IN THE 14th AMENDMENT DUEPROCESS?
WAS, MY PROCEDURAL DUE-PROCESS CIRCUMVENTED BY NO COURT TAKING ACTION & JUST
REFUSING TO HEAR THE CASES BACK IN 2014?
WAS, MY DUE PROCESS VIOLATED BY ATTORNEY REITZ WHO JUST QUIT REPRESENTING ME?
ALSO, I COULDN'T GET ANOTHER ATTORNEY APPOINTED TO ME!
WHEN, ATTORNEY REITZ MISSED THE DEADLINE,WITH THE PA SUPREME COURT, HE NEVER
RESPONDED TO ANY OF MY REQUESTS AND JUST QUIT REPRESENTING ME. WAS THE 14th
AMENDMENT VIOLATED?
I, WAS STUCK WITHOUT LEGAL COUNSEL & MY CASES WERE NEVER RE-ASSIGNED TO ANOTHER
COUNTY C0URT._F.URTHERMQRE,.MY-ENII.RE-CRIMINAL-.F-ILE-WAS-NEVER-PRQDUC6D-!-DID;-----THEIR ACTIONS VIOLATE THE 14th AMENDMENT?

'A

QUESTION(S) PRESENTED

DID, JUDGE KANE ABUSE HER AUTHORITY BY NOT RULING ON THE EVIDENCE PROVIDED TO
HER? KINDLY SEE EXHIBITS A.5,A.6,A.l & A.2
DID, JUDGE KANE DENY ME MY DUE-PROCESS BY NOT HAVING A HEARING ON ALL ISSUES
RAISED?
DID, JUDGE KANE OVERLOOK THE EVIDENCE AND VIOLATE MY EQUAL PROTECTION RIGHTS
CONTAINED IN THE 14th AMENDMENT?
SHOULD JUDGE KANE HAVE ORDERED MY CASES TO BE RE-ASSIGNED? IN ORDER FOR ME TO
RECEIVE MY DUE-PROCESS CONTAINED IN THE 14th AMENDMENT SECTION 1!
DID, JUDGE KANE ENGAGE IN A COURSE OF CONDUCT WHICH WAS GOVERNMENT
INTERFERENCE?
DID, THE PA SUPREME COURT VIOLATE THE 14th AMENDMENT & JUDICIAL CANONS BY NEVER
RE-ASSIGNING MY CASES TO ANOTHER COUNTY COURT TO BE HEARD?
DID THE PA SUPREME COURT, ALONG WITH NORTHUMBERLAND COUNTY COURT, ENGAGE IN
GOVERNMENT INTERFERENCE? SEE EXHIBITS A.5,A.6,A.l, AND A.2
WAS I DENIED MY EQUAL PROTECTION FROM THE PA SUPREME COURT?
DID, JUDGE KANE OVERLOOK THE STATUE (d)(l)(B)*STATUE OF LIMITATIONS* SEE #51 OF
PETITION?
WAS/IS THEIR AN IMPEDIMENT WHICH IS CREATED BY STATE ACTION? BY RECUSING THE
ENTIRE COUNTY FROM HEARING ANY OF MY CASES & NEVER SENDING THE PENDING CASES
FOR RE-ASSIGNMENT? SEE EXHIBITS A.5, A.6,A.2,& A.l
HOW COULD I BE TIME BARRED WHEN MANY ATTEMPTS BY MYSELF TO HAVE THE CASES
HEARD? SEE EXHIBITS A.5, A.6, A.l, & A.2

list of parties

RICHARD C. CURRAN,
PETITIONER
V.
COMMONWEALTH OF PA, ET, AL

NORTHUMBERLAND COUNTY DA'S OFFICE
CASE# CR-0991-05

r/
,i. i

,-v
V

II

IN THE UNITED STATES SUPREME COURT
"RICHARD C. CURRAN, ..
APPELLANT

'

NO.

V.
COMMONWEALTH OF PA,et,al .
RESPONDENTS

PETITION FOR WRIT OF CERTIORARI

1. . PRESIDENT JUDGE WILLIAM HARVEY WIEST RECUSED THE ENTIRE COUNTY COURT FROM HEARING
ANY OF MY CASES. SEE ATTACHED EXHIBITS A.6, A.5,. WIEST ALSO NEVER SENTTHE CASES TO THE PA
SUPREME COURT FOR RE-ASSIGNMENT.
2. MY COURT APPOINTED COUNSEL NEVER PRODUCED MY ENTIRE CRIMINAL FILE LIKE HE TOLD ME HE
WOULD DO! ATTORNEY REITZ ALSO MISSED A DEADLINE WITH THE PA SUPREME COURT. .
3. REITZ, HAD SENT A LETTER TO SCI FOREST (WHERE I USE TO RESIDE), INSTEAD OF SCI ALBION WHERE
I WAS AT THAT TIME. THE LETTER WAS APPROX. 60 DAYS OLD.
4. THE LETTER CONTAINED AN ORDER DENYING NUNC PRO TUNC; FROM THE PA SUPREME COURT!
5. AFTER THE COURT ORDER RECEIVED WAS RECEIVED BY ME (60 DAYS OLD) REITZ WOULDN'T
RESPOND TO MY ATTEMPTS AT CONTACTING HIM. BY LETTER OR BY PHONE.
6. IN EXHIBIT A.5 THE LETTER STATES THAT REITZ WOULD BE INFORMED OF THE CASES WHERE THEY
WOULD BE RE-ASSIGNED TO. REITZ TOLD ME HE NEVER HEARD ANYTHING. WHICH CONFLICTS WITH
THE LETTER DATED JULY 24th 2014. THIS WAS BEFORE REITZ MISSED THE DEADLINE & WAS
REPRESENTING ME.
7. ON THE 13th DAY OF AUGUST EXHIBIT A.6 THE COURT ORDER WAS PRODUCED.
8. I, TRIED TO CONTACT REITZ & HE NEVER RESPONDEDTO ANY OF MY REQUESTS.
9. I, WAS STUCK WITHOUT LEGAL COUNSEL AND MY CASES WERE NEVER RE-ASSIGNED TO THE PA
SUPREME COURT. FURTHERMORE, MY ENTIRE CRIMINAL FILE WAS NEVER PRODUCED.
10. I, HAD WRITTEN THE PA SUPREME COURT WITH EXHIBITS A.5 AND A.6 . THEY SAID THAT THEY WILL
ONLY TAKE PLEADINGS & NO LETTERS.
-ll._THEYSENT-BACK-ALL OF MY PETITIONS. SO. I HAD A MANDAMUS THAT WAS CREATED ALL BY
MYSELF. THE MANDAMUS WAS FOR MY ENTIRE CRIMINAL FILE & RETURN OF PROPERTY. ALSO, I MAY
ADD WIEST'S COUNSEL NEVER FILED AN ANSWER TO MY COMPLAINT (MANDAMUS).

s
V

■

it.

12. THE PA SUPREME COURT WAS APART OF THE GOVERNMENT INTERFERENCE SEE EXHIBITS
A.l & A.2. THEY NEVER SENT THE CASES FOR RE-ASSIGNMENT. SEE EXHIBIT A.5 & A.6.
13.1, ALSO MAY ADD THAT PRESIDENT JUDGE WILLIAM HARVEY WIEST HAD HIS LAW CLERK
WRITE TO ME HEATH W. BROSIUS THAT WAS ON JULY 24th 2014 SEE EXHIBIT A.5
14. ON 13th AUGUST 2014 SHOWS THE COURT ORDER WITH JUDGE WILLIAM HARVEY WIEST
SIGNATURE* AS PRESIDENT JUDGE* THE ORDER WAS FILED ON AUG 13th 1:45 PM
15. 1/COULDN'T GET MY CRIMINAL FILE FROM NORTHUMBERLAND COUNTY COURT WHICH
VIOLATES MY DUE PROCESS AND EQUAL PROTECTION WHICH IS CONTAINED IN THE IN THE
UNITED STATES CONSTITUTION.
16. ALSO, I COULDN'T GET ANY LEGAL COUNSEL BECAUSE THE COURT REFUSED TO SEND ALL
PENDING CASES TO PENNSYLVANIA SUPREME COURT. MY CASES WERE NEVER REASSIGNED
SEE EXHIBITS A.l, A.2, A.5 & A.6
17. NORTHUMBERLAND COUNTY COURT WAS RECUSED AND NEVER ANSWERED ANY OF MY
LETTERS FOR MY ENTIRE CRIMINAL FILE.
18. THEIR ACTION MADE IT IMPOSSIBLE TO GET ANOTHER COURT APPOINTED COUNSEL AS
WELL!
19. I, WAS STUCK WITHOUT LEGAL COUNSEL.
20. PETITIONER AVERS THAT ALL PCRA PROCEEDINGS I REQUESTED LEGAL COUNSEL.
21. THE DISTRICT ATTORNEY NEVER EVEN ENTERED THEIR APPEARENCE IN THE U.S. COURT OF
APPEALS.
22. WHICH VIOLATES THE CONSTITUTION OF THE UNITED STATES UNDER THE 14th
AMENDMENT SECTION 1 WHICH CLEARLY READS: ALL PERSONS BORN OR NATURALIZED IN
THE UNITED STATES AND SUBJECT TO THE JURISDICTION THEREOF, ARE CITIZENS OF THE
UNITED STATES AND OF THE STATE WHEREIN THEY RESIDE. NO STATE SHALL MAKE OR
ENFORCE ANY LAW WHICH SHALL ABRIDGE THE PRIVILEGES OR IMMUNITIES OF CITIZENS OF
THE UNITED STATES; NOR SHALL ANY STATE DEPRIVE ANY PERSON OF LIFE, LIBERTY, OR
PROPERTY WITHOUT DUE PROCESS OF LAW; NOR DENY TO ANY PERSON WITHIN ITS
JURISDICTION THE EQUAL PROTECTION OF THE LAWS.
23. DUE PROCESS DEFINED: A COURSE OF FORMAL PROCEEDINGS (AS JUDICIAL PROCEEDINGS)
CARRIED OUT REGULARY, FAIRLY, AND IN ACCORDANCE WITH ESTABLISHED RULES AND
PRINCIPLES.
24. THEIR WAS NEVER ANY DUE PROCESS AND ON AUGUST 13th 2014 WHEN PRESIDENT

■

i>

-.i v\

JUDGE WILLIAM HARVEY WIEST PRODUCED THE COURT ORDER OF THE RECUSAL HE MADE
SURE OF IT!
25. BY NOT GIVING ME MY ENTIRE CRIMINAL FILE; SURELY VIOLATED MY DUE PROCESS
WHICH IS CONTAINED IN THE 14th AMENDMENT.
/
26. THE REASON FOR WANTING MY ENTIRE CRIMINAL FILE WAS TO PRODUCE A TIMELY PCRA
TO HAVE HEARD IN ANOTHER COUNTY COURT *SINCE JUDGE WIEST RECUSED THE ENTIRE
COUNTY FROM HEARING ANY OF MY CASES* SEE EXHIBITS A.5 & A.6
27. THEIR ACTIONS OF NOT PROVIDING ME WITH LEGAL COUNSEL AFTER REITZ JUST QUIT
REPRESENTING ME * VIOLATED MY DUE PROCESS & ALSO EQUAL PROTECTION OF THE LAWS.
WHICH ARE CONTAINED IN THE US CONSTITUTION. IN THE 14th AMENDMENT SEE # 22.
28. FURTHERMORE, REITZ WAS AN INEFFECTIVE ASSISTANCE OF COUNSEL. MOREOVER, I
WANTED ANOTHER LEGAL COUNSEL APPOINTED TO ME. NOBODY APPOINTED ME NEW
COUNSEL AFTER REITZ JUST QUIT.
29. I, WAS FORCED TO REPRESENT MYSELF!
30. SURELY, THAT IS INEFFECTIVE ASSISTANCE OF COUNSEL; REITZ ALSO VIOLATED RULES
REGARDING ATTORNEY'S CONDUCT/PROFESSION.
31. ALL OF MY CASES WERE NEVER RE-ASSIGNED TO ANOTHER COUNTY COURT LIKE STATED IN
' THE LETTER SEE EXHIBIT A.5
32. A CLOSER LOOK AT EXHIBIT A.5: THE COURT HAS RECEIVED YOUR LETTER DATED JULY 15th
2014 YOU HAVE BEEN APPOINTED COUNSEL IN THE PCRA PROCEEDING - MR. TIMOTHY REITZ.
IN ADDITION THIS COURT HAS RECUSED ITSELF FROM ANY INVOLVEMENT IN MATTERS
INVOLVING YOU SIR. THEREFORE, THIS COURT WILL TAKE ABSOLUTELY NO ACTION ON ANY OF
YOUR OUTSTANDING MOTIONS/PETITIONS YOUR ATTORNEY HAS BEEN OR SOON WILL BE
’ ADVISED OF THE RE-ASSIGNMENT OF YOUR PENDING MATTERS. ONCE AGAIN PURSUANT TO
THE JUDICIAL CANONS WHICH GOVERN JUDICIAL RECUSALS. THIS COURT WILL TAKE NO
ACTION ON YOUR MOTIONS/PETITIONS. ALL CORRESPONDENCE FROM YOU REGARDING YOUR
PCRA PETITION SHOULD BE FORWARDED TO YOUR ATTORNEY OF RECORD. YOUR ATTORNEY
WILL BE ABLE TO EXPLAIN THE NATURE AND SCOPE OF HIS APPOINTMENT.
33. WIEST AND BROSIUS INCRIMINATE THEMSELVES BY THIS EXHIBIT A.5. FURTHERMORE,
THEY SAY TO CONTACT REITZ. REITZ JUST QUIT REPRESENTING ME. THEY HAD DONE THIS ON
PURPOSE. I, TRIED TO HAVE MY CASES RE-ASSIGNED WITHOUT ANY SUCESS. REITZ'S ACTION
ARE BEYOND THE LIMITS OF GOOD TASTE TO SAY THE LEAST.
34. I, WILL LIST ALL VIOLATIONS IN THIS PETITION.

\6

35. MY DUE PROCESS FOR THE PENDING MATTERS IN 2014 WERE HI-JACKED BY JUDGE WIEST
AND VIOLATED THE 14th AMENDMENT UNDER DUE PROCESS AND EQUAL PROTECTION.
36. WIEST, SURELY DIDN'T PROVIDE ME WITH DUE-PROCESS. WIEST ALSO CAUSED ME NOT
TO HAVE ANY LEGAL COUNSEL! ALL OF WIEST'S CRIMINAL ACTIONS WERE DONE ON PURPOSE.
SEE EXHIBIT A.5&A.6.
37. AGAIN, I MAY ADD DUE PROCESS DEFINED : A COURSE OF FORMAL PROCEEDINGS (AS
JUDICIAL PROCEEDINGS)CARRIED OUT REGULARY, FAIRLY, AND IN ACCORDANCE WITH
ESTABLISHED RULES AND PRINCIPLES.
38. THEIR WERE NO PROCEEDINGS ON MY CIVIL CASES. SURELY, MY CRIMINAL PROCEEDINGS
WERE JUST STOPPED. WHICH VIOLATES MY EQUAL PROTECTION UNDER THE 14th
AMENDMENT. ALSO, THEIR WERE NEVER ANY FORMAL PROCEEDINGS CARRIED OUT.
FURTHERMORE, NONE OF MY CASES WERE NEVER TRANSFERRED.
39. THE PA SUPREME COURT FAILED TO RE-ASSIGN ALL CASES FROM NORTHUMBERLAND
COUNTY PERTAINING TO ME! AFTER NUMEROUS ATTEMPTS BY PETITIONER TO GIVE THE PA
SUPREME COURT THE CHANCE TO DO WHAT IS MANDATORY BY THE 14th AND JUDICIAL
CANONS.
40. IT IS APPARENT, THAT THE PA SUPREME COURT VIOLATED ME EQUAL PROTECTION
RIGHTS UNDER THE 14th AMENDMENT AS WELL!
41. THEY ALSO ENGAGED IN A COURSE OF CONDUCT WHICH IS KNOWN AS GOVERNMENT
INTERFERENCE. MOREOVER, NORTHUMBERLAND COUNTY WOULDN'T SEND THE CASES TO
THE PA SUPREME COURT FOR RE-ASSIGNMENT AND THE PA SUPREME COURT FAILED TO TAKE
ACTION ON MY NUMEROUS REQUESTS, AND THE MANDAMUS.
42. WIEST'S ATTORNEY WILLIAMS DIDN'T EVEN HAVE AN ANSWER TO MY MANDAMUS YET IT
WAS DISMISSED. SURELY, THEIR IN-ABILITY TO ACT PROVES THAT NOT ONLY DUE-PROCESS
VIOLATIONS OCCURRED BUT ALSO EQUAL PROTECTION WAS ALSO VIOLATED.
43. I, STRONGLY AVER THAT NO US CITIZEN HAD BEEN SUBJECTED TO SUCH CONSTITUTIONAL
VIOLATIONS AS I HAVE. MOREOVER, THEIR WERE NO FORMAL PROCEEDINGS ON MY
PENDING PETITIONS/MOTIONS THAT WERE SUBMITTED TIMELY IN 2014.
44. SURELY, I COULDN'T GET ANY OTHER ATTORNEY TO REPRESENT ME. PRESIDENT JUDGE
WIEST SAW TO THAT!
45. WIEST, WOULDN'T RESPOND TO ANY OF MY REQUESTS FOR MY ENTIRE CRIMINAL FILE.
ALSOrWIEST-R-EG-USEDjr-Hi-E-N-TIRi-COUNTY-F-ROM-HEARJNG-ANY_OF_My_CASES_&-EAILED_TO.
SEND ALL CASES TO THE PA SUPREME COURT FOR REASSIGNMENT. SEE EXHIBITS A.5 & A.6

* V

46. IN ADDITION TO, THE PA SUPREME COURT NEVER RE-ASSIGNED MY CASES & HAD THE
NERVE TO SAY FILE THE PCRA IN NORTHUMBERLAND COUNTY COURT. THEY INCRIMINATE
THEMSELVES JN EXHIBITS A.l & A.2 FURTHERMORE, l' PROVIDED THEM EXHIBITS A.5 & A.6
WHICH ARE IRREFUTABLE EVIDENCE!
47. SINCE 2014 MY CASES NEVER RECEIVED ANY DUE PROCESS AGAIN THE 14th AMENDMENT
HAS BEEN VIOLATED TO THE EXTREME BECAUSE OF THEIR DELIBERATE ACTIONS. UNDER
EQUAL PROTECTION & DUE PROCESS.
48. THEIR ACTIONS ALSO MADE IT IMPOSSIBLE TO OBTAIN LEGAL COUNSEL & REITZ JUST QUIT!
49. MOREOVER, I MAY ADD, THEIR IS NO CASE LAW THAT COVERS PRESIDENT JUDGE RECUSES
THE ENTIRE COUNTY COURT FROM HEARING ANY CASES OF PETITIONER & FAILING TO SEND
ALL CASES TO THE PA SUPREME COURT FOR RE-ASSIGNMENT.
50. SURELY, ALL THE JUDGES TO DATE, THAT WERE INVOVED IN MY CASE SHOULD GO TO
PRISON FOR ALL OF THEIR ILLEGAL ACTIONS, VIOLATIONS OF JUDICIAL CANONS, & US
CONSTITUTION UNDER THE 14th AMENDMENT!
51. STATUE OF LIMITATIONS DEFINED: (d)(1)(B) THE DATE ON WHICH THE IMPEDIMENT TO
FILING AN APPLICATION CREATED BY STATE ACTION IN VIOLATION OF THE CONSTITUTION OR
LAWS OF THE UNITED STATES IS REMOVED, IF THE APPLICANT WAS PREVENTED FROM FILING
BY SUCH STATE ACTION.
52. SURELY, THEIR WERE MANY VIOLATIONS OF THE CONSTITUTION UNDER THE 14th
AMENDMENT & LAWS CRIMES CODE VIOLATIONS.
53. HOW COULD I GET DUE-PROCESS WHEN THE IMPEDIMENT WAS CREATED BY STATE
ACTION. FURTHERMORE, IT VIOLATED THE JUDICIAL CANONS;WHICH JUDGES ARE REQUIRED
TO FOLLOW! IN EXHIBIT A.5 THE JUDICIAL CANONS ARE BROUGHT UP. HOWEVER, THEY
NEVER WERE ADHERED TO. EXHIBIT A.6 IS THE COURT ORDER WHICH WAS FILED ON 13th
AUGUST 2014.
54. SUCH A MISCARRIAGE OF JUSTICE NEVER HAPPENED BEFORE;THAT IS WHY CASE LAW
DOESN'T APPLY. THEIR ARE VIOLATIONS OF THE 14th AMENDMENT UNDER DUE-PROCESS AND
EQUAL PROTECTION CONTAINED IN THE US CONSTITUTION. HOW COULD THE COURTS BE SO
CRUEL AND DUE-PROCESS STOPPING IN A MURDER CASE. THE NUMEROUS VIOLATIONS JUST
KEEP STACKING UP AND THE COURTS SHOULD BE ASHAMED OF THEMSELVES!
55. FURTHERMORE, HOW COULD THEY JUST CIRCUMVENT THE JUDICIAL CANONS PERTAINING
TO RECUSALS? HOW COULD ALL COURTS JUST IGNORE THE US CONSTITUTION? MY DUE
-PR0CESS-HAS-BEEN-HI-JACKED-BY-T-HE-C0UR-TS4’-0-DATE!-H0WEV-ER-,-l-W-ILL-N0T-GIVE-UP------KINDLY SEE EXHIBITS A.5 & A.6. FOR THE PA SUPREME COURT'S VIOLATIONS SEE EXHIBITS A.l
& A.2

t *

56. FURTHERMORE, THE DISTRICT ATTORNEY'S OFFICE (OF NORTHUMBERLAND COUNTY)
NEVER ENTERED THEIR APPEARANCE IN THE US COURT OF APPEALS; AFTER NUMEROUS
CHANCES BY THE COURT.
57. WHICH VIOLATES THE CONSTITUTION OF THE UNITED STATES UNDER THE 14th
AMENDMENT SECTION 1 WHICH CLEARLY READS: ALL PERSONS BORN OR NATURALIZED IN
THE UNITED STATES AND SUBJECT TO THE JURISDICTION THEREOF, ARE CITIZENS OF THE
UNITED STATES AND OF THE STATE WHEREIN THEY RESIDE. NO STATE SHALL MAKE OR
ENFORCE ANY LAW WHICH SHALL ABRIDGE THE PRIVILEGES OR IMMUNITIES OF CITIZENS OF
THE UNITED STATES; NOR SHALL ANY STATE DEPRIVE ANY PERSON OF LIFE, LIBERTY, OR
PROPERTY WITHOUT DUE PROCESS OF LAW; NOR DENY TO ANY PERSON WITHIN ITS
JURISDICTION THE EQUAL PROTECTION OF THE LAWS.
58. SURELY, THE DISTRICT ATTORNEY'S OFFICE SHOULD HAVE ENTERED THEIR APPEARANCE.
THE DISTRICT ATTORNEY'S OFFICE'S-ACTIONS WERE DONE ON PURPOSE. I,WOULD LIKE TO
KNOW HOW THE APPEALS COURT ENCOURAGED THEIR IN-APPROPRIATE ACTIONS.
MOREOVER, WITHOUT THE DISTRICT ATTORNEY’S OFFFICE'S APPEARANCE THEY DIDN'T
PROSECUTE THE CASE IN APPEALS COURT. WHICH VIOLATES MY DUE PROCESS CONTAINED IN
THE 14th AMENDMENT. ALSO, VIOLATING DUE-PROCESS CLAUSE *FURTHERMORE, NO STATE
SHALL MAKE OR ENFORCE ANY LAW WHICH SHALL ABRIDGE THE PRIVILEGES OR IMMUNITIES
OF CITIZENS OF THE UNITED STATES; NOR SHALL ANY STATE DEPRIVE ANY PERSON OF LIFE,
LIBERTY, OR PROPERTY WITHOUT DUE PROCESS OF LAW; NOR DENY TO ANY PERSON WITHIN
ITS JURISDICTION THE EQUAL PROTECTION OF THE LAWS. MY DUE-PROCESS WAS HI-JACKED
BY THE US COURT OF APPEALS.
59. THE COURT CAN'T BE THE EXECUTIVE BRANCH OF GOVERNMENT. THE COURT (JUDICIAL
BRANCH) CAN ONLY INTERPRET THE LAW. WITHOUT THE DA'S OFFICE PROSECUTING THE :
CASE, THIS COURT CAN ONLY DISMISS THE CASE!
60. IN ADDITION TO, MY PROCEDURAL DUE PROCESS DEFINED: A REQUIREMENT THAT LAWS
AND REGULATIONS MUST BE RELATED TO A LEGITMATE GOVERNMENT INTEREST;AND MAY
NOT CONTAIN PROVISIONS THAT RESULT IN THE UNFAIR OR ARBITRARY TREATMENT OF AN
INDIVIDUAL. SURELY, THE DISTRICT ATTORNEY'S OFFICE NOT ENTERING THEIR APPEARANCE
CAUSES THE UNFAIR TREATMENT OF AN INDIVIDUAL. FURTHERMORE, WIEST VIOLATED
JUDICIAL CANONS SEE EXHIBITS A.5 & A.6 ARE PROOF HOW MY DUE PROCESS WAS UNFAIR
AND UN-HEARD OF BY THE COURT OF COMMON PLEAS, PA SUPREME COURT, DISTRICT COURT,
& APPEALS COURT.
61. ALSO, SEE EXHIBITS A.1&A.2 HOW CAN A COURT WITHOLD THE ENTIRE CRIMINAL FILE
WHICH WAS REQUESTED NUMEROUS TIMES. WIEST, VIOLATED THE JUDICIAL CANON'S
PERTAINING TO RECUSAL. FURTHERMORE, NOW THE PA SUPREME COURT WAS INVOLVED BY
MOT RF-ASSIGNING ALL PENDING CASES IN 2014. SURELY, TO DATE I NEVER RECEIVED ANY
DUE-PROCESS PERTAINING TO MY CASES!

62. THE JUDICIAL CANONS GOVERN RECUSALS WHICH ARE APART OF PROCEDURAL DUE
PROCESS I AM ENTITLED TO; SEE EXHIBIT A.5 AND A.6! I WAS DEPRIVED OF MY DUE-PROCESS
BECAUSE THE PENDING CASES IN 2014 WERE NEVER RE-ASSIGNED. NORTHUMBERLAND
COUNTY FAILED TO SEND ALL PENDING CASES TO THE PA SUPREME COURT FOR RE­
ASSIGNMENT. FURTHERMORE, THE PA SUPREME COURT FAILED TO ACT ON MY MANDAMUS
WHICH WAS FILED WITH THEM. MOREOVER, PRESIDENT JUDGE WILLLIAM HARVEY WIEST'S
ATTTORNEY TAYLOR WILLIAMS DIDN'T EVEN FILE AN ANSWER TO THE MANDAMUS. WHICH IS
AN ADMISSION OF GUILT. THEY HAD NOTHING THAT THEY COULD HAVE SAID! YET, THE PA
SUPREME COURT VIOLATED DUE-PROCESS AND EQUAL PROTECTION UNDER THE 14th
AMENDMENT CONTAINED IN THE US CONSTITUTION.
63. MOREOVER, EXHIBIT A.5 GOES IN-TO DETAIL ABOUT MY CASES BEING SENT TO THE PA
SUPREME COURT FOR RE-ASSIGNMENT. THEY (NORTHUMBERLAND COUNTY COURT) NEVER
TRANSFERRED THE CASES. THAT IS IN VIOLATION OF MY DUE-PROCESS AND IS CONTAINED IN
THE 14th AMENDMENT SECTION 1. *US CONSTITUTION*
64. EXHIBIT A.6 CLEARLY SHOWS THAT THE PRESIDENT JUDGE(WIEST) RECUSED THE ENTIRE
COUNTY FROM HEARING ANY OF MY CASES. FURTHERMORE, NONE OF MY CASES WERE
NEVER SENT TO THE PA SUPREME COURT FOR RE-ASSIGNMENT. WHICH CLEARLY VIOLATES
THE JUDICIAL CANONS & EXHIBIT A.5 GOES INTO DETAIL ABOUT MY CASES BEING RE­
ASSIGNED.

N

65. A CLOSER LOOK AT THE JUDICIAL CANONS: CANON# 1 JUDGES SHOULD UPHOLD THE
INTEGRITY AND INDEPENDENCE OF THE JUDICIARY. SURELY, BY NOT SENDING MY CASES FOR
RE-ASSIGNMENT TO THE PA SUPREME COURT THAT ACTION UNDERMINDED THIS CANON IN
EVERY WHICH WAY!
66. CANON# 2A & B JUDGES SHOULD AVOID IMPROPRIETY AND THE APPEARANCE OF
IMPROPRIETY IN ALL THEIR ACTIVITIES. A GOES ON TO SAY: JUDGES SHOULD REPECT AND
COMPLY WITH THE LAW AND SHOULD CONDUCT THEMSELVES AT ALL TIMES IN A MANNER
THAT PROMOTES PUBLIC CONFIDENCE IN THE INTEGRITY AND IMPARTIALITY OF THE
JUDICIARY. TO WIT: MY CASES SHOULD HAVE BEEN TRANSFERRED TO THE PA SUPREME
COURT FOR RE-ASSIGNMENT TO ANOTHER COUNTY COURT! JUDGE WIEST RECUSED THE
ENTIRE COUNTY COURT FROM HEARING ANY OF MY CASES & NEVER SENT THE PENDING CASES
FOR REASSIGNMENT! SEE EXHIBITS A.5 & A.6
67. CANON# 3 JUDGES SHOULD PERFORM THE DUTIES OF THEIR OFFICE IMPARTIALLY AND
DILIGENTLY. A.l JUDGES SHOULD BE FAITHFUL TO THE LAW AND MAINTAIN PROFESSIONAL
COMPETENCE IN IT. THEY SHOULD BE UNSWAYED BY PARTISAN INTERESTS, PUBLIC CLAMOR,
OR FEAR OF CRITICISM. TO WIT: WIEST HAD AN OBLIGATION TO SEND ALL PENDING CASES TO
THE PA SUPREME COURT FOR RE-ASSIGNMENT & FAILED TO DO SO PURPOSE!
-68. IN ADDITION TO: CANON# 3 A.2,3,4 &5 ALL WERE VIOLATED BY WIEST. THE LIST GOES ON
AND ON. SEE EXHIBITS A.5 & A.6 MY EQUAL PROTECTION & DUE-PROCESS WERE VIOLATED!

69. MOREOVER, ON CANON# 3 B. 1&2 ADMINISTRATIVE RESPONSBILITIES: JUDGES SHOULD
DILIGENTLY DISCHARGE THEIR ADMINISTRATIVE RESPONSBILITIES, MAINTAIN PROFESSIONAL
COMPETENCE IN JUDICIAL ADMINISTRATIVE RESPONSIBILITIES OF OTHER JUDGES AND COURT
OFFICIALS. TO WIT: WIEST DISQUALIFIED HIMSELF FROM HEARING ANY OF MY CASES & THE
ENTIRE COUNTY AND FAILED TO SEND ALL CASES TO THE PA SUPREME COURT FOR RE­
ASSIGNMENT. FURTHERMORE, SEE EXHIBITS A.5 & A.6
70. ON JUDICIAL CANON# 3 C(l)(a) DISQUALIFICATION: JUDGES SHOULD DISQUALIFY
THEMSELVES IN A PROCEEDING IN WHICH THEIR IMPARTIALITY MIGHT REASONABLY BE
QUESTIONED, INCLUDING BUT NOT LIMITED TO INSTANCES WHERE: THEY HAVE A PERSONAL
BIAS OR PREJUDICE CONCERNING A PARTY, OR PERSONAL KNOWLEDGE OF DISPUTED
EVIDENTIARY FACTS CONCERNING THE PROCEEDING. TO WIT: JUDGE WIEST HAS A PERSONAL
BIAS AGAINST ME(PETITIONER); THAT BIAS & PREJUDICE IS CLEARLY APPARENT.
71. WIEST NEVER FOLLLOWED THE PROPER PROCEDURE & NEVER SENT THE CASES FOR RE­
ASSIGNMENT. WHICH ALSO VIOLATED MY DUE-PROCESS IN THE U.S. CONSTITUTION UNDER
THE 14th AMENDMENT SECTION 1 EXHIBIT A.5 THE LETTER FROM WIEST'S LAW CLERK WAS
NEVER FOLLOWED AT ALL. EXHIBIT A.6 SHOWS THAT HE HAD RECUSED THE ENTIRE COUNTY
FROM HEARING ANY OF MY CASES! EQUAL PROTECTION RIGHTS HAVE NEVER BEEN VIOLATED
LIKE WHAT WAS DONE TO ME. ALSO, THE VIOLATION OF MY SUBSTANTIVE DUE PROCESS
RIGHTS ARE VIOLATED AS WELL. FURTHERMORE, VIOLATION OF MY PROCEDURAL DUE
PROCESS RIGHTS WERE & ARE STILL BEING VIOLATED.
72. FURTHERMORE, (1) STATUE OF LIMITATIONS (d)(1)(B) GOES ON TO STATE: THE DATE ON
WHICH THE IMPEDIMENT TO FILING AN APPLICATION CREATED BY STATE ACTION IN
VIOLATION OF THE CONSTITUTION OR LAWS OF THE UNITED STATES IS REMOVED, IF THE
APPLICANT WAS PREVENTED FROM FILING BY SUCH STATE ACTION. TO WIT: THE IMPEDIMENT
STILL REMAINS; JUDGE WIEST'S ACTIONS WERE DONE ON PURPOSE IN ORDER TO AVOID MY
DUE PROCESS. MOREOVER, ALL OTHER COURTS HAVE VIOLATED THIS SECTION AND THE 14th
AMENDMENT AS LISTED IN THIS PETITION. SEE EXHIBITS A.5,A.6,A.l & A.2
73. NUMEROUS TIMES I TRIED TO OBTAIN MY ENTIRE CRIMINAL FILE FOR THE PURPOSES OF
PRODUCING A TIMELY PCRA.
74. ATTORNEY REITZ NEVER OBTAINED MY ENTIRE CRIMINAL FILE FOR ME, AFTER TELLING ME
HE WOULD DO SO,SURELY SUCH ACTIONS VIOLATE MY DUE PROCESS UNDER THE 14th
AMENDMENT.
75. MOREOVER, AFTER ATTORNEY REITZ MISSED THE DEADLINE IN THE PA SUPREME COURT
HE JUST QUIT REPRESENTING ME. I TRIED TO CONTACT HIM BY US MAIL & BY PHONE TO NO
AVAIL.
76. I, MAY ALSO ADD I HAD RECEIVED A COURT ORDER FROM THE PA SUPREME COURT
WHICH WAS APPROXIMATELY 60 DAYS OLD. THE MALEE LAW FIRM SENT ME THE ORDER.

77. SURELY, THE ACTIONS OF REITZ ARE INEFFECTIVE ASSISTANCE OF COUNSEL WHEN HE
MISSED THE DEADLINE BY THE PA SUPREME COURT. FURTHERMORE, REITZ JUST QUIT
REPRESENTING ME. THIS WAS DONE ON PURPOSE BY HIM. REITZ COMMITED NUMEROUS
CRIMES CODE VIOLATIONS, PROFESSIONAL MIS-CONDUCT, & DUE PROCESS VIOLATIONS
78. I WAS STUCK WITHOUT LEGAL COUNSEL AS REITZ JUST QUIT REPRESENTING ME.
79. I, HAD NO LEGAL COUNSEL & COULDN'T GET ANOTHER ATTORNEY APPOINTED TO ME.
MOREOVER, MY CASES HAD NO-WHERE TO BE HEARD. WIEST, RECUSED THE ENTIRE COUNTY
FROM HEARING ANY OF MY CASES & FAILED TO SEND THE CASES TO THE PA SUPREME COURT
FOR RE-ASSIGNMENT. SEE EXHIBITS A.5 & A.6
80. IN ADDITION TO, NORTHUMBERLAND COUNTY COURT OF COMMON PLEAS NEVER
RESPONDED TO ANY OF MY REQUESTS FOR MY CRIMINAL FILE. WHICH VIOLATES THE 14TH
AMENDMENT SECTION 1 *US CONSTITUTION* DUE-PROCESS & EQUAL PROTECTION OF THE
LAWS.
81. MOREOVER, I HAD NO WAY WHAT-SO-EVER TO GET A COURT APPOINTED ATTORNEY. MY
CASES WERE NEVER HEARD. THE PA SUPREME COURT FAILED TO RE-ASSSIGN ANY OF MY
CASES. ALL OF MY OUTSTANDING CASES WERE (MOTIONS/PETITIONS)DENIED DUE-PROCESS.
82. AGAIN, MY PROCEDURAL DUE- PROCESS WAS NEVER FOLLOWED BY THE PA SUPREME
COURT, NORTHUMBERLAND COUNTY COURT, DISTRICT COURT, & THE US COURT OF APPEALS.
83. THEIR ACTIONS (NORTHUMBERLAND COUNTY COURT)CAUSED DUE-PROCESS VIOLATIONS
& BLOCKED ME FROM RECEIVING JUSTICE IN MY CASE!
84. BY NOT PROVIDING MY ENTIRE CRIMINAL FILE, CAUSED A STATE ACTION THAT VIOLATED
THE US CONSTITUTION. UNDER DUE-PROCESS 14th AMENDMENT SECTION 1. THIS WAS DONE
ON PURPOSE BY WIEST!
85. THE STATUE OF LIMITATIONS (d)(1)(B) SEE #72 ON THIS PETITION! I, MAY ALSO ADD THE
IMPEDIMENT WAS NEVER REMOVED!
86. THE PA SUPREME COURT WAS WELL INFORMED BY PETITIONER TO HAVE THE CASES RE­
ASSIGNED. THE PA SUPREME COURT JUST IGNORED ALL EVIDENCE PRESENTED TO THEM! SEE
EXHIBITS A.1 & A.2
87. THE REASON FOR REQUESTING MY ENTIRE CRIMINAL FILE WAS TO PRODUCE ANOTHER
PCRA TO BE HEARD IN COUNTY COURT. THE RE-ASSIGNMENT OF MY CASES NEVER TOOK
PLACE. SEE EVIDENCE PROVIDED EXHIBITS A.l & A.2 I, TRIED TO HAVE MY CASES HEARD TO
NO AVAILT
88. JUDGE KANE FAILED TO ACT ON THE EVIDENCE PROVIDED TO HER AS WELL!

v'

«

89. HOW COULD I BE TIME-BARRED WHEN NO DOCUMENTS WERE PROVIDED TO ME FROM
NORTHUMBERLAND COUNTY COURT. ALSO, NO WAY OF GETTING ANY LEGAL COUNSEL.
SEE EXHIBITS A.5 &A.6
90. MOREOVER, WHEN AT THE MHU IN SCI PITTSBURG I HAD NO LEGAL TIME PROVIDED TO
ME!
91. AT SCI WAYMART IN THE FTC SECTION YOU WERE ONLY ALOUD TO GO TO THE LAW
LIBRARY FOR 30 MINUTES A WEEK. THAT VIOLATES MY DUE-PROCESS AND IS ALSO
GOVERNMENT INTERFERENCE!
92. GOVERNNMENT INTERFERENCE WAS A-FOOT AT SCI PITTSBURG & SCI WAYMART.
93. WHEN I PRODUCED THE PCRA I HAD SENT IT TO THE PA SUPREME COURT FOR THE PROPER
PROCEDURE TO BE APPLIED; I PROVIDED EXHIBITS A.5 & A.6 WHICH IS THE COURT ORDER A.6
AND THE LETTER FROM JUDGE WIEST'S LAW CLERK.
94. THEIR RESPONSE WAS TO SEND THE PCRA BACK TO ME & DIRECT THE FILING TO BE AT
NORTHUMBERLAND COUNTY. THEY IGNORED ALL EVIDENCE PRESENTED TO THEM! THE PA
SUPREME COURT HAS SOME NERVE TO OVERLOOK EVIDENCE PRESENTED TO THEM; THAT IS
SURELY GOVERNMENT INTERFERENCE! SEE EXHIBITS A.5 , A.6, A.l & A.2 ALSO DUE-PROCESS
VIOLATIONS TO SAY THE LEAST.
95. I, EVEN TRIED TO SEEK JUSTICE IN THE FORM OF A MANDAMUS. THE ATTORNEY FOR
WIEST, WILLIAMS NEVER EVEN FILED AN ANSWER TO THE MANDAMUS! WIEST KNOWS HE IS
GUILTY OF ALL THAT I ACCUSED HIM OF AND ALSO THE COURT!
96. AGAIN, THE PA SUPREME COURT HAD FULL KNOWLEDGE OF THE RECUSAL BY WIEST. THE
PA SUPREME COURT WAS APART OF VIOLATING MY DUE-PROCESS SEE EXHIBITS A.5, A.6, A.l &
A.2.
97. JUDGE KANE, NEVER ADDRESSED ANY OF THE ISSUES. ESPECIALLY, THE RE-ASSIGNMENT
OF ALL MY CASES FROM THE PA SUPREME COURT; TO ANOTHER COUNTY COURT. JUDGE KANE
FAILED TO ACT ON THE EVIDENCE PROVIDED TO HER. SEE EXHIBITS A.5, A.6, A.l & A.2
98. BY THE PA SUPREME COURT NOT FOLLOWING THE PROPER PROCEDURE FOR A RECUSAL
OF THE ENTIRE COUNTY SEE EXHIBIT A.6 & A.5 THEY GOT INVOLVED WITH VIOLATING MY DUEPROCESS, MY EQUAL PROTECTION, & GOVERNMENT INTERFERENCE.
99. IT IS CLEARLY APPARENT, THAT MY CASES WERE NEVER TRANSFERRED TO THE PA
■SUPREMETOURTrMOREOVER7WHEN-THE-RE-eUSAL-WA8-BROUGHT-TO-THEIR-ATT-ENT-|0N7
THEY FAILED TO ACT (SEE EXHIBITS A.5 & A.6)ALSO EXHIBITS A.l & A.2

100. JUDGE KANE (DISTRICT COURT) NEVER ADDRESSED ANY ISSUES PERTAINING TO
PRESIDENT JUDGE WILLIAM HARVEY WIEST (NORTHUMBERLAND COUNTY COURT OF PLEAS
CRIMINAL DIVISION) RECUSING THE ENTIRE COURT FROM HEARING ANY OF MY CASES!
101. BY THE PA SUPREME COURT NOT FOLLOWING THE PROPER PROCEDURE FOR A RECUSAL
OF THE ENTIRE COUNTY COURT THEY GOT INVOLVED IN GOVERNMENT INTERFERENCE.
ALONG WITH THE DISTRICT COURT, & US COURT OF APPEALS! EXHIBITS A.5, A.6, A.l, & A.2
TELL ALL!
102. IT IS CLEARLY APPARENT, THAT MY CASES WERE NEVER SENT TO THE PA SUPREME COURT
FOR RE-ASSIGNMENT. MOREOVER, WHEN THE RECUSAL WAS BROUGHT TO THEIR ATTENTION,
THEY FAILED TO ACT. WHICH VIOLATED THE 14th AMENDMENT SECTION 1 DUE PROCESS,
EQUAL PROTECTION OF THE LAWS,CONTAINED IN THE US CONSTITUTION.
103. ALSO, THE JUDICIAL CANONS GOVERNING INTEGRITY! CANON# 1 JUDGES SHOULD
UPHOLD THE INTEGRITY AND INDEPENDENCE OF THE JUDICIARY. SURELY, BY NOT RULING IN
MY FAVOR CONCERNING THE RECUSAL & RE-ASSIGNMENT OF ALL MY CASES. THAT ACTION
UNDERMINDED THIS CANON IN EVERY WHICH WAY. SEE EXHIBITS A.5,A.6,A.1&A.2
104. CANON# 2A & B JUDGES SHOULD AVOID IMPROPRIETY AND THE APPEARANCE OF
IMPROPRIETY IN ALL THEIR ACTIVITIES. SURELY THESE 2 SECTIONS WERE VIOLATED BY NOT
SENDING MY CASES FOR RE-ASSIGNMENT. NORTHUMBERLAND COUNTY COURT HAD
DISPLAYED IMPROPRIETY & THE APPEARANCE THEIR-OF.
105. CANON# 3 C(l)(a) THE DISQUALIFICATION CANON: JUDGES SHOULD PERFORM THE
DUTIES OF THEIR OFFICE IMPARTIALLY AND DILIGENTLY. WIEST HAD AN OBLIGATION TO SEND
ALL PENDING CASES IN 2014 TO THE PA SUPREME COURT FOR RE-ASSIGNMENT & FAILED TO
DO SO ON PURPOSE!
106. IN ADDITION TO: CANON# 3 A.2,3,4,&5 ALL WERE VIOLATED BY WIEST. THE LIST GOES
ON AND ON!
107. MOREOVER, ON CANON# 3 B. 1 &2 ADMINISTRATIVE RESPONSIBILITES: JUDGES
SHOULD DILIGENTLY DISCHARGE THEIR ADMINISTRATIVE RESPONSIBILITIES, MANTAIN
PROFESSIONAL COMPETENCE IN JUDICIAL ADMINISTRATIVE RESPONSIBILITIES OF OTHER
JUDGES AND COURT OFFICIALS. WIEST DISQUALIFIED HIMSELF FROM HEARING ANY OF MY
CASES & THE ENTIRE COUNTY. WIEST, ALSO FAILED TO SEND ALL CASES TO THE PA SUPREME
COURT FOR RE-ASSIGNMENT. THE JUDICIAL ADMINISTRATIVE RESPONSIBILITIES CONCERNING
THE OTHER JUDGES ARE EXTREMELY FLAWED AS WELL!
V
108. JUDGE KANE NEVER ADDRESSED ANY ISSUES ON THE EVIDENCE PROVIDED TO HER;
WHrCH'WERE'EXHTBITS_A:57A:67ATl-&-AT2-ALSOrSHE-ABUSED-HER-AUT-HORI-TY-BY-SIMRLYIGNORING THE EVIDENCE. SHE KNOWS MY CASES SHOULD HAVE BEEN RE-ASSIGNED TO
ANOTHER COUNTY COURT.

a*

109. EVEN THE US COURT OF APPEALS FAILED TO ADDRESS THE ISSUES IN THE PETITION FOR
RE-HEARING WHICH DEALT WITH THE CONSTITUTIONAL VIOLATIONS, THE 14th AMENDMENT,
& STATUTORY PROVISIONS.
110. THE US COURT OF APPEALS JUST DENIED MY PETITION FOR RE-HEARING & IGNORED THE
EVIDENCE PRESENTED TO THEM.
111. KINDLY, REVIEW THE EVIDENCE PRESENTED TO THIS COURT; WHICH IS EXHIBITS A.5, A.6,
A.l & A.2
112. SURELY, BY LOOKING AT THE EXHIBITS & THE FACT THEIR WERE NO FORMAL
PROCEEDINGS ON MY CASE PROVES CONSTITUTIONAL VIOLATIONS HAD OCCURRED!
113. SEE #62, 63, 64, & 65, WHICH SHOWS WHAT JUDICIAL CANONS WERE VIOLATED.
114. #66 CANON# 2A & B JUDGES SHOULD RESPECT & COMPLY WITH THE LAW!
115. #67 CAN ON #3 JUDGES SHOULD PERFORM THE DUTIES OF THEIR OFFICE IMPARTIALLY
AND DILIGENTLY SEE EXHIBITS A.5, A.6, A.l & A.2
116. WIEST, HAS/HAD AN OBLIGATION TO SEND ALL PENDING CASES TO THE PA SUPREME
COURT FOR RE-ASSIGNMENT & FAILED TO DO SO ON PURPOSE! SEE EXHIBITS A.5, A.6, A.l &
A.2
117. #69, CANON# 3 B 1&2 ADMINISTRATIVE RESPONSBILITIES WIEST DISQUALIFIED THE
ENTIRE COUNTY COURT FROM HEARING ANY OF MY CASES SEE EXHIBITS A.5 & A.6 AND NEVER
SENT THE CASES FOR RE-ASSIGNMENT
118. #70 CANON# 3 C(l)(a) WIEST HAS A BIAS AGAINST ME & HE WON'T DO WHAT IS
EXPECTED OF HIM BY THE JUDICIAL CANONS!
119. SEE #71
120. SEE # 72 THE STATUE OF LIMITATIONS (d)(1)(B) THE DATE ON WHICH THE IMPEDIMENT
TO FILING AN APPLICATION CREATED BY STATE ACTION. TO WIT: THE IMPEDIMENT STILL
EXISTS!
-

*

121.

JUDGE KANE ALSO HAD AN OBLIGATION TO REVIEW ALL EXHIBITS PRESENTED TO
HER. SHE, NEVERBADDRESSED AN ISSUES RAISED BY PETITIONER.

122. UNDER RECENTLY DISCOVERED I, FORMATION : ATTORNEY JAMES BEST NEVER FILED ANY
PAPERWORK ON MY BEHALF. IN-FACT uKA YEAR OR MORE HE JUST FILED CONTINUANCES.
I,ASKED FOR ANOTHER ATTORNEY SINCE BEST KEPT GETTING CONTINUANCES AND THAT WAS
ALL THAT HE HAD DONE! I HAD WRITTEN JUDGE SACAVAGE. SACAVAGE, HAD APPOINTED MR
TIMOTHY REITZ, ATTORNEY FOR MY PCRA.
123. KINDLY, SEE EXHIBIT A.5 WHERE IT IS TYPED THAT MY COURT APPOINTED COUNSEL IS
ATTORNEY REITZ SURELY THEIR OWN FOOLISH ACTIONS INCRIMINATE THEM. THAT IS A FRAUD
THAT ATTORNEY JAMES BEST REPRESENTED ME AT AN EVIDENTARY HEARING OR ANY
HEARING WHAT-SO-EVER!
124. THEIR REASON THEY CLAIM THIS IS BECAUSE, REITZ THE COURT APPOINTED ATTORNEY
JUST QUIT REPRESENTING ME!

125. ATTORNEY REITZ REPRESENTED ME AT AN EVIDENTARY HEARING. REITZ APPPEALED THE
JUDGES DECISION TO THE SUPERIOR COURT AND PA SUPREME COURT. WHEN REITZ MISSED A
DEADLINE AT THE PA SUPREME COURT HE FILED FOR NUNC-PRO-TUNC AND IT WAS TURNED
DOWN HE SENT THE LETTER TO SCI FOREST, WHERE I USE TO RESIDE, IT WAS 60 DAYS LATE
UNTIL IT WAS RECEIVED AT SCI-ALBION. MOREOVER, IT WAS RECEIVED AS REGULAR MAIL.
126. DURING MY HEARING AT NORTHUMBERLAND COUNTY COURT, FOR CR# 0991-2005
ATTORNEY ROMINGER FIRST CALLED ME A DEAD-BEAT-DAD DURING THE TRIAL I,
IMMEDIATLEY IN OPEN COURT SAID HE WAS FIRED. SACAVAGE (THE JUDGE) ORDERED ME,
ROMINGER, AND THE DA'S OFFICE IN THE JUDGES CHAMBERS!
127. I, AGAIN SAID THAT ROMINGER WAS FIRED. SACAVAGE, SAID MY ORAL MOTION TO FIRE
------ €QUMSEL-WA-S-PE-NIFP^r-H^^-,-F-VF-RY-ONF_RET.URNED_TO THE CPURT-ROOM!_____________ _
128. DURING THE TRIAL, THE COMMONWEALTH OF PA WITHDREW THE AGGRAVATING
FACTORS AND THE DEATH PENALTY WAS REMOVED!

129. DURING CLOSING ARGUMENTS ROMINGER SAID THAT I SHOT AND KILLED TINA CURRAN.
130. KINDLY, SEE ROBERT LEROY McCOY PETITIONER U.S. Louisiana 584 US1385 Ct
ed 2d 821, 2018 US LEXIS 2802

200 L

131. THE SIXTH AMENDMENT GUARANTEES TO EACH CRIMINAL DEFENDANT THE ASSISTANCE
OF COUNSEL FOR HIS DEFENSE L ED DIGEST CRIMINAL LAW SECTION 46.4
132. COUNSEL COULD NOT ADMIT HIS CLIENTS GUILT OF A CHARGED CRIME AND VIOLATION
OF A DEFENDANT'S SIXTH AMENDMENT SECURED AUTONOMY CONSTITUTED STRUCTURAL
ERROR WARRANTING A NEW TRIAL, BECAUSE THE ADMISSION BLOCKED THE DEFENDANT'S
RIGHT TO MAKE FUNDAMENTAL CHOICES ABOUT HIS OWN DEFENSE.
133. GUILT- ADMISSION BY COUNSEL- STRUCTURAL ERROR- WARRANTING A NEW TRIAL!
134. FEDERAL CONSTITUTION'S SIXTH AMENDMENT GUARANTEED CRIMINAL DEFENDANT
RIGHT TO CHOOSE OBJECTIVE OF HIS DEFENSE AND TO INSIST THAT HIS COUNSEL REFRAIN
FROM ADMITTING GUILT!
135. COUNSEL'S ADMISSION OF A CLIENT'S EXPRESS OBJECTION IS STRUCTURAL IN KIND.
SUCH AN ADMISSION BLOCKS THE DEFENDANT'S RIGHT TO MAKE THE FUNDAMENTAL CHOICES
ABOUT HIS OWN DEFENSE. AND THE EFFECTS OF THE ADMISSION WOULD BE IMMEASURABLE,
BECAUSE A JURY WOULD ALMOST CERTAINLY BE SWAYED BY A LAWYER'S CONCESSION OF HIS
CLIENT'S GUILT. (GINSBURG, J., JOINED BY ROBERTS, CH. J., AND KENNEDY, BREYER,
SOTOMAYOR, AND KAGAN, JJ.)
136. THUS, WHEN A CLIENT MAKES IT PLAIN THAT THE OBJECTIVE OF "HIS DEFENCE" IS TO
MAINTAIN INNOCENCE OF THE CHARGED CRIMINAL ACTS AND PURSUE AN ACQUITTAL, HIS
LAWYER MUST ABIDE BY THAT OBJECTIVE AND MAY NOT OVERRIDE IT BY CONCEDING GUILT.
, 200 L. Ed. 2d, at 829-831
Pp-__

137.

ENCLOSED IS THE CASE LAW CONCERNING:
ROBERT LEROY McCOY, PETITIONER
VS.
LOUISIANA
584 US__, 138 S ct , 200 L'Ed 2d 821, 2018 US LEXIS 2802
~ ( No. 16-8255)

138. KINDLY, SEE ALL OF EXHIBIT B A TOTAL OF 16 PAGES ENCLOSED!
139’

THE TRIAL COURT REFUSED TO HEAR PSYCHIATRIC EVIDENCE FROM
DR. POGOS H. VOSKANIAN FORENSIC PSYCHIATRY CONCERNING
IRRESISTIBLE IMPULSE. THE TRIAL COURT SAID THAT IN PA
IRRESISTIBLE IMPULSE IS NOT A DEFENSE TO A CRIME. THE JUDGE
SACAVAGE SAID THE LAW DOESN'T ALLOW THAT DEFENSE.

140. MY ATTORNEY DIDN'T ARGUE THE FACT WHAT-SO-EVER. KINDLY
OBTAIN VOSKANIAN REPORT WHICH IS A TOTAL OF 50 PAGES.
THE JUDGE SACAVAGE DENIED THE EVIDENCE TO BE LOOKED AT.
141. PSYCHIATRIC EVIDENCE WAS ADMISSIBLE TO BE EVALUATED BY THE
JURY WHEN DEFENDANT OFFERED IT TO NEGATE THE ELEMENT OF
SPECIFIC INTENT REQUIRED FOR A CONVICTION OF MURDER OF THE
FIRST DEGREE.
142. SEE COMMONWEALTH OF PENNSYLVANIA V. Michael Nickles WALZACK,
APPELLANT, SUPREME COURT OF PENNSYLVANIA
468 Pa. 210; 360 A.2d 914; 1976 Pa. LEXIS 672
143. THE OUTCOME WAS JUDGEMENT REVERSED AND NEW TRIAL AWARDED!
EXPERT TESTIMONY REGARDING DEFENDANT'S MENTAL STATE WAS
RELEVANT TO SPECIFIC INTENT REQUIRED FOR FIRST DEGREE MURDER
PROFFERED PSYCHIATRIC EVIDENCE WAS FOUND COMPETENT, AND THUS
DUE PROCESS REQUIRED ITS ADMISSION. SURELY MY DUE-PROCESS .
WAS DENIED!
1LL

9FF EXHIBIT BA A TOTAL OF 12 PAGES. ALSO, SEE COMMONWEALTH
OF PENNSYLVANIA V. DANIEL LEE GRAVES, APPELLANT, SUPREME
COURT OF PENNSYLVANIA
461 Pa. 118; 334 A2d 661; 1975 Pa. LEXIS 729

145. FURTHERMORE, MY ATTORNEY IN THE TRIAL COURT (Rominger)
AGREED TO ANY AND ALL STIPULATIONS THAT THE DISTRICT ATTORNEY ASKED FOR DENIED ME MY 6th AMENDMENT.RIGHT.

146. AGAIN, MY 6th AMENDMENT RIGHT WAS VIOLATED BY NOT HAVING
ANY QUESTIONS OF THE COMMONWEALTH CHALLENGED.
147. ALL STIPULATIONS THAT ATTORNEY KARL ROMINGER AGREED TO
DEPRIVED OF MY 6th AMENDMENT RIGHT.
SEE MELENDEZ-DIAZ 557 U.S. 305, 129 5 Ct. 2527, 174 L. Ed.
2d 314 (2009)
148. ALSO SEE COMMONWEALTH OF PA.
99 ( PA SUPERIOR Ct 1998)

V. KUZMANKO 709 A2d 392, 397-

149. MY DUE-PROCESS WAS DENIED BY ALL COURTS INVOLVED & IGNORED .
THE EVIDENCE CONCERNING THE MANY VIOLATIONS OF THE PA & US
CONSTITUTION.
150. MY COURT APPOINTED ATTORNEY REITZ MISSED A DEADLINE WITH THE
PA SUPREME COURT & WAS DENIED NUNC-PRO-TUNC. AFTER THAT
HE JUST QUIT REPRESENTING ME. WHICH IS INEFFECTIVE
ASSISTANCE OF COUNSEL & CRIMES CODE VIOLATIONS AS WELL.
151. THE LOWER COURTS SAID THAT I WAS TIME BARRED. I MAY ADD_
THAT THE PRESIDENT JUDGE WIEST RECUSED THE ENTIRE COUNTY :
FROM HEARING ANY OF MY CASES. SEE EXHIBIT A.6 & A,. 5
FURTHERMORE, HE NEVER SENT THE PENDING CASES FOR :
f7
RE-ASSIGNMENT LIKE ENTITLED IN HIS LETTER A.5
152. Magistrate CARLSON SAID IT WAS JUST A TRIAL JUDGE. SURELY,
HE WAS LYING. IT IS CLEAR IN EXHIBIT A.5 THAT WIEST STATED
THROUGH HIS LAW CLERK THAT ALL CASES WERE TO BE RE-ASSIGNED
153. IN THE LETTER HE SAYS THE COURT HAS APPOINTED YOU LEGAL 3'
COUNSEL MR. TIMOTHY REITZ WHICH INCRIMINATES THEM.
HE ALSO STATES THAT THE COURT WILL TAKE NO ACTION ON ANY OF
MY CASES. SEE EXHIBIT A.5
154. exhibit A.6 clearly STATES THE COURT RECUSES ITSELF FROM
MY CRIMINAL CASE SIGNED BY PRESIDENT JUDGE WILLIAM HARVEY
WIEST. THAT IS A COURT ORDER & STILL WIEST NEVER SENT THE
CASES FOR RE-ASSIGNMENT. WHICH VIOLATES THE JUDICIAL CANONS
155. Statue of limitations defined:: (d)(1)(B) THE DATE ON WHICH
THE IMPEDIMENT TO FILING AN APPLICATION CREATED BY STATE
ACTION IN VIOLATION OF THE CONSTITUTION OR LAWS OF THE
UNITED STATES IS REMOVED, IF THE APPLICANT WAS PREVENTED
FROM FILING BY SUCH STATE ACTION. SURELY, A RECUSAL &
FAILURE TO SEND THE PENDING CASES FOR RE-ASSIGNMENT CAUSED
_____ ihf_lmpj:dxment_and_sttll..ISN'T REMOVED. SO, SURELY, I CAN'T
be time barred.

156.

RELIEF SOUGHT:
TO, HAVE A NEW TRIAL
SUBJECTS
TO ORDER A RESPONSE FROM THE DA'S OFFICE
A RELEASE FROM CUSTODY & DISCHARGE
TO, NOT BE TIME BARRED FROM THE COURTS
TO: ACKNOWLEDGE STATUE OF LIMITATIONS
(d)(1)(B)
TO: ACKNOWLEDGE THE STATE ACTION WHICH WAS THE IMPEDIMENT
SEE A.6 THE ACTUAL COURT ORDER
KINDLY, REVIEW ENTIRE PETITION
to, subpeona:all

'y&h/?JL t.

RICHARDC.CURRAN DOC# HQ-2566
Sci Mahanoy
301 Morea Road
FRACKVILLE, PA 17932

IN THE UNITED STATES SUPREME COURT
NO.-

RICHARD C. CURRAN,
PETITIONER
V.
COMMONWEALTH OF PA, ET, AL,
RESPONDENTS

CERTIFICATE OF SERVICE
ON

I, RICHARD C. CURRAN HAD PROVIDED THE PETITION

FOR WRIT OF CERTIORARI IN CORRECTED FORM BY SENDING THE PETITION
IN US MAIL TO THE FOLLOWING BELOW LISTED ADDRESSES.
TO THE CLERK
SUPREME COURT OF THE UNITED STATES
WASHINGTON, D.C. 20543
&

ADD-ONS SENT TO THE DA'S OFFICE

NORTHUMBERLAND COUNTY DISTRICT ATTORNEY'S OFFICE
201 MARKET STREET
THIRD FLOOR
SUNBURY, PA 17801

RICHARD C. CURRAN DOC# HQ-2566
SCI MAHANOY
301 MOREA ROAD
FRACKVILLE, PA 17932

TABLE OF CONTENTS
1
2

OPINIONS BELOW.............................................................
JURISDICTION................ ....................... .. • ............
CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE................................................
REASONS FOR GRANTING THE WRIT
SEE ENTIRE PETITION #'S 1 THRU 156.
CONCLUSION

3 &9 3 h3 3

.
3

7,.8.: & 9

INDEX TO APPENDICES
APPENDIX A COURT ORDER FROM US COURT OF APPEALS
APPENDIX B PETITION FOR RE-HEARING DATED 12-20-19
APPENDIX C EXHIBIT A.5 PRESIDENT JUDGE WILLIAM WIEST RECUSED THE
ENTIRE COURT FROM HEARING ANY OF MY CASES
APPENDIX D EXHIBIT A.6 ACTUAL COURT ORDER OF THE ENTIRE COUNTY
BEING RECUSED!
APPENDIX E EXHIBIT A.l I, HAD SENT A PCRA TO THE SUPREME COURT
AND ASKED THE SUPREME COURT TO RE-ASSIGN THE CASES.
APPENDIX F EXHIBIT A.2 IS THE PA SUPREME COURT'S REFUSAL TO
RE-ASSIGN THE CASES (IN VIOLATION OF JUDICIAL CANONS)
APPENDIX G EXHIBIT B CASE LAW ON ROBERT LEROY McCOY, PETITIONER
VS. LOUISIANA
APPENDIX H EXHIBIT BA CASE LAW ON COMMONWEALTH OF PA V. WALZACK
GRAVES
APPENDIX I EXHIBIT BB CASE LAW ON COMMONWEALTH OF PA V.
APPENDIX J EXHIBIT BC CASE LAW 7U.S. 305 MELENDEZ-DIAZ V.
MASSACHUSETTS
KINDLY, SEE ALL EXHIBITS & PLEASE GET ALL EXHIBITS FROM THE LOWER
COURTS FEDERAL (DISTRICT) & (APPEALS)

TABLE OF AUTHORITIES CITED
STATUES & RULES

THE US CONSTITUTION 14th AMENDMENT SECTION 1 DUE-PROCESS SEE #22 OF THE PETITION
STATUE OF LIMITATIONS (d)(1)(B) SEE # 51 OF THE PETITION & # 57 (72 AS WELL)
EQUAL PROTECTION OF LAWS # 57 & 62

JUDICIAL CANONS #62
SEE EXHIBIT'S A.5 & A.6
CANON# 1 #65
CANON# 2A & B #66
CANON# 3 #67
CANON# 3 A,2,3A&5 #68
CANON# 3 B 1&2 #69
CANON# 3C(l)(a) #70

CASE LAW
ROBERT LEROY McCOY, PETITIONER
vs.
LOUISIANA

584 US_,

138 S Ct_, 200 L Ed 2d 821, 2018 US LEXIS 2802
( No.

16-8255) .

___ RXHTRTT R A TOTAL OF 16 PAGES_________ -

TABLE OF AUTHORITIES CITED CONTINUED

MICHAEL
APPENDIX H CASE LAW EXHIBIT BA COMMONWEALTH OF PA V.
MICKLES WALZACK, A!^"Fcourt of PENNSYLVANIA
468 Pa. 210, 360 A.2d 914; 1976 Pa. LEXIS 672
July 6, 1976, Decided
April 25, 1974, Argued
APPENDIX I EXHIBIT BB CASE LAW COMMONWEALTH OF PENSYLVANIA V.
D
atH pi Lee
APPELLANT
Daniel
Lee GRAVES,
GKAVL
CQURT 0F PENNSYLVANIA
461 Pa. 118; 334 A2d 661; 1975 Pa. LEXIS 729
MARCH 18, 1975 Decided
January 10, 1974, Argued
APPENDIX J EXHIBIT BC CASE LAW 7 U.S. 305 MELENDEZ-DIAZ, -----Petitioner VS. MASSACHUSETTS
557 US 305 129 S Ct 2527, 174 L Ed 2d 314, 2009 US LEXIS 4734
’
No. 07-591
Argued November 10, 2008.
Decided June 25, 2009

I

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
p ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
lx ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
N/A

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
IT

i

JURISDICTION
P ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_________________ ■
[ ] No petition for rehearing was timely filed in my case.
k 3 A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 12-20-19
and a copy of the
B
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

n/a

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

VIOLATION OF THE CONSTITUTION OF THE UNITED STATES UNDER THE 14th AMENDMENT
SECTION 1 WHICH IS CONTAINED IN # 22 OF THE PETITION. DUE-PROCESS VIOLATIONS,
NORTHUMBERLAND COUNTY COURT OF COMMON PLEAS PRESIDENT JUDGE WILLIAM HARVEY
WIEST RECUSED THE ENTIRE COURT FROM HEARING ANY OF MY CASES! FURTHERMORE, HE
NEVER SENT THE PENDING CASES TO THE PA SUPREME COURT FOR RE-ASSIGNMENT. SEE
EXHIBITS A.5,A.6,A.l & A.2

WHEN ATTORNEY REITZ JUST QUIT REPRESENTING ME I DIDN'T HAVE THE CHANCE TO HAVE
LEGAL COUNSEL. I TRIED NUMEROUS TIMES TO GET MY ENTIRE CRIMINAL FILE TO NO AVAIL.
NORTHUMBERLAND COUNTY COURT OF COMMON PLEAS CRIMINAL DIVISION WOULD NOT
RESPOND BACK TO ANY OF MY REQUESTS FOR THE FILE. WHICH VIOLATES THE 14th
AMENDMENT UNDER DUE-PROCESS.
FURTHERMORE, MY EQUAL PROTECTION OF THE LAWS WAS ALSO VIOLATED!
MY, DUE PROCESS DEFINED: A COURSE OF FORMAL PROCEEDINGS (AS JUDICIAL PROCEEDINGS)
CARRIED OUT REGULARY, FAIRLY, AND IN ACCORDANCE WITH ESTABLISHED RULES AND
PRINCIPLES.
JUDGE WILLIAM HARVEY WIEST, (PRESIDENT JUDGE) NEVER PROVIDED ME WITH DUE PROCESS
AND RECUSED THE ENTIRE COUNTY COURT FROM HEARING ANY OF MY CASES!
IN THE LETTER FROM WIEST'S LAW CLERK EXHIBIT A.5 CONTAINED ON # 32 OF THE PETITION
THEY SAY YOUR ATTORNEY HAS BEEN OR SOON WILL BE ADVISED OF THE RE-ASSIGNMENT OF
YOUR PENDING MATTERS. SHORTLY AFTER THIS LETTER REITZ JUST QUIT REPRESENTING ME.
I,DID ASK REITZ IF THE COURT CONTACTED HIM; REITZ TOLD ME HE WASN'T CONTACTED BY
NORTHUMBERLAND COUNTY COURT. SEE PETITION # 32 ALONG WITH A.5,& A.6
WIEST AND BROSIUS INCRIMINATE THEMSELVES BY THIS EXHIBIT A.5 & A.6
MY DUE PROCESS FOR THE PENDING MATTERS IN 2014 WERE HI-JACKED BY WIEST AND
VIOLATED THE 14th AMENDMENT UNDER DUE PROCESS AND EQUAL PROTECTION! SEE # 22 OF
PETITION.
JUDICIAL CANONS WERE VIOLATED AS WELL
STATUE OF LIMITATIONS (d)(1)(B) SEE PETITION# 51, 52, 53, & 54
TO'DlCIAL~CA~NOTO-r#65_OF~PETmON-eANON#-2A-&-B-#66-©F-PET-IT4QN-&4NON#-3-PET4IIO.N.
# 67 & 68

3.

/

»
4

9

JUDICIAL CANON# 3 B. 1&2 PETITION# 69 JUDICIAL CANON# 3C(l)(a)
#72 (d)(1)(B) THE STATE ACTION CREATED AN IMPEDIMENT ON PURPOSE. ALSO, SEE EXHIBITS
A.5,A.6,A.l, & A.2

4.

STATEMENT OF THE CASE

ON JUNE 20th 2008 I WAS CONVICTED OF FIRST DEGREE MURDER, AGGRAVATED ASSUALT 7
COUNTS, & RECKLESS ENDANGERMENT. FOLLOWING A 5 DAY JURY TRIAL CASE # CR-09912005 NORTHUMBERLAND COUNTY COURT OF COMMON PLEAS CRIMINAL DIVISION. I WAS
SENTENCED ON THE SAME DAY TO LIFE IN PRISON, 4 TO 8 YEARS, & 1MONTH.
DURING MY TRIAL, MY ATTORNEY KARL ROMINGER, CALLED ME A DEAD-BEAT DAD TO THE
JURY. FURTHERMORE, IN CLOSING ARGUEMENTS KARL ROMINGER SAID I SHOT AND KILLED
MY EX-WIFE TINA CURRAN. 'JUDGE SACAVAGE TOLD THE JURY TO LISTEN TO WHAT KARL
ROMINGER SAID; OR SOMETHIMG TO THAT EFFECT!
SURELY, BASED ON WHAT MY ATTORNEY SAID THEIR SHOULD HAVE BEEN A MIS-TRIAL. MY
DUE-PROCESS WAS VIOLATED ACCORDING TO THE 14th AMENDMENT OF THE US
CONSTITUTION; TO THE HIGHEST DEGREE.
THEN, MY COURT APPOINTED COUNSEL ATTORNEY REITZ AMENDED MY PCRA. ATTTORNEY
REITZ WAS REPRESENTING ME.
I, WAS ATTEMPTING TO GET MY ENTIRE CRIMINAL FILE TO NO AVAIL. WHICH VIOLATES MY
DUE-PROCESS UNDER THE 14th AMENDMENT.
ATTORNEY REITZ CLAIMED HE WOULD GET IT FOR ME; WHICH HE NEVER HAD DONE.
I, FILED CUSTODY PETITION(S) & W-2 PETITIONS WITH NORTHUMBERLAND COUNTY COURT.
REITZ HAD TYPED A LETTER TO THE NORTHUMBERLAND COUNTY COURT HE DID NOT
REPRESENT ME ON THE AFORESAID PETITION(S).
THEN, PRESIDENT JUDGE WILLIAM HARVEY WIEST RECUSED THE ENTIRE COUNTY FROM
HEARING ANY OF MY CASES SEE EXHIBITS A.5, & A.6
MY CASES WERE TO BE SENT TO THE PA SUPREME COURT FOR RE-ASSIGNMENT. THE CASES
WERE NEVER RE-ASSIGNED LIKE THEY WERE SUPPOSE TO BE. IN FACT, MY ATTORNEY REITZ
JUST QUIT REPRESENTING ME. I MADE NUMEROUS ATTEMPTS AT CONTACTING HIM; TO NO
AVAIL.
I, WAS LEFT WITH NO LEGAL COUNSEL. I MADE SEVERAL ATTEMPTS TO HAVE ALL MY CASES
RE-ASSIGNED WHICH RESULTED IN NOTHING! FIRST, I HAD SENT A LETTER TO THE PA
SUPREME COURT. THEIR, RESPONSE WAS THAT THEY DON'T ACT ON LETTERS ONLY
PLEADINGS. ALL TIMES I PROVIDED THEM WITH EXHIBITS A.5, A.6, WHICH PROVE MY CASES
-W-ERE-T-0-BE-RE=ASSIG.N£DJ_______________________________________

5.

4

SO, I FILED A MANDAMUS AGAINST WILLIAM HARVEY WIEST & HIS ATTORNEY TAYLOR
WILLIAMS DIDN'T EVEN FILE A RESPONSE. THEN THE PA SUPREME COURT DIDN'T GRANT THE
RELIEF REQUESTED.
SEE EXHIBITS A.5, A.6, A.l & A.2 THE EXHIBITS ARE SELF EXPLANATORY!
THE RELEVANT FACTS OF THE CASES ARE AS FOLLOWS: WILLIAM HARVEY WIEST RECUSED THE
ENTIRE COUNTY OF HEARING ANY OF MY CASES.
WILLIAM HARVEY WIEST NEVER SENT THE CASES TO THE PA SUPREME COURT FOR RE­
ASSIGNMENT. THE CASES WERE TO GO TO THE PA SUPREME COURT THAN RE-ASSIGNED TO
ANOTHER COUNTY COURT SEE EXHIBITS A.5, A.6, A.l & A.2
INSTEAD OF RE-ASSIGNING THE CASES LIKE THEY WERE SUPPOSE TO THEY JUST SAID TO FILE IN
NORTHUMBERLAND COUNTY COURT SEE EXHIBITS A.l & A.2
THAT CAUSED A GIANT BREAKDOWN OF MY DUE- PROCESS. WIEST NEVER SENT THE CASES
FOR RE-ASSIGNMENT LIKE HE CLAIMED HE WOULD. MOREOVER, WIEST HAD NO INTENTIONS
OF SENDING THE CASES FOR RE-ASSIGNMENT. EXHIBIT(S) A.5 EVEN MENTION THE JUDICIAL
CANONS. EXHIBIT A.6 IS THE COURT ORDER RECUSING THE ENTIRE COUNTY FROM HEARING
ANY OF MY CASES.
I, COULDN'T EVEN GET MY ENTIRE CRIMINAL FILE FROM NORTHUMBERLAND COUNTY COURT.
THE REASON I WANTED THE ENTIRE CRIMINAL FILE WAS TO PREPARE A COMPLETE PCRA WITH
ALL RELEVANT ISSUES.
BY NOT HAVING MY ENTIRE CRIMINAL FILE CAUSED AN DUE-PROCESS VIOLATIONS & EQUAL
PROTECTION OF THE LAWS INFRACTIONS; TO THE EXTREME!
MOREOVER, I KEPT ATTEMPTING TO HAVE MY CASE(S) HEARD. SEE EXHIBIT A.l EXHIBIT A.2
SHOWS HOW THE PA SUPREME COURT IGNORED ALL EVIDENCE PRESENTED TO THEM; WHICH
WAS EXHIBITS A.5 & A.6.
THE PA SUPREME COURT FAILED TO ACT ON THE APPROPRIATE EVIDENCE & TURNED THEIR
HEAD.
THE NORTHUMBERLAND COUNTY COURT WAS THE START OF THE DUE-PROCESS VIOLATIONS &
ENLISTED THE HELP OF THE PA SUPREME COURT!

6.

.'s'

*

REASONS FOR GRANTING THE PETITION

FIRST OF ALL, THE UNITED STATES COURT OF APPEALS NEVER ADDRESSED ANYTHING IN THE
PETITION FOR RE-HEARING. THE DISTRICT ATTORNEY'S OFFICE NEVER ENTERED THEIR
APPEARANCE IN APPEALS COURT. ALL COURTS INVOLVED WILL NOT ADDRESS THE ISSUES OF
THE VARIOUS VIOLATIONS OF THE COURTS.
MY DUE-PROCESS FROM THE US CONSTITUTION (14th AMENDMENT WAS/IS VIOLATED ALL
THE TIME); ALONG WITH MY EQUAL PROTECTION RIGHTS!
I, COULDN’T GET MY ENTIRE CRIMINAL FILE FROM NORTHUMBERLAND COUNTY COURT; ALL
OF MY REPEATED ATTEMPTS WERE IN VAIN. FURTHERMORE, MY COURT APPOINTED COUNSEL
JUST QUIT REPRESENTING ME!
I, MAY ALSO ADD NO COURT ADDRESSED THE CONSTITUTIONAL VIOLATIONS OF THE COURTS
INVOLVED!
NO, COURTS ADDRESSED THE VIOLATIONS OF THE JUDICIAL CANONS & STATUE OF
LIMITATIONS INVOLVED (d)(1)(B). THEY DON'T WANT TO ADMIT THAT THE STATE ACTION IS
IN VIOLATION OF THE US CONSTITUTION & LAWS. FURTHERMORE, THE IMPEDIMENT REMAINS
THERE.
MOREOVER, ATTORNEY REITZ, WHEN HE WAS REPRESENTING ME, NEVER PRODUCED MY
ENTIRE CRIMINAL FILE!
NUMEROUS TIMES I TRIED TO OBTAIN MY ENTIRE CRIMINAL FILE FOR THE PURPOSES OF
PRODUCING A TIMELY PCRA!
PRESIDENT JUDGE WILLIAM HARVEY WIEST RECUSED THE ENTIRE COUNTY FROM HEARING
ANY OF MY CASES SEE EXHIBITS A.5 & A.6; HE NEVER SENT THE CASES FOR RE-ASSIGNMENT
LIKE HE WAS OBLIGATED TO DO!
THE PA SUPREME COURT, AFTER NUMEROUS ATTEMPTS, WOULDN'T RE-ASSIGN THE CASES
EVEN WHEN THE MANDAMUS WAS FILED. MOREOVER, THE PA SUPREME COURT WOULDN'T
EVEN RULE ON THE EVIDENCE PROVIDED TO THEM; THEY SIMPLY IGNORED THE EVIDENCE. SEE
EXHIBITS A.5,A.6, A.1&A.2
ALSO, NORTHUMBERLAND COUNTY DISTRICT ATTORNEY'S OFFICE NEVER ENTERED THEIR
APPEARENCE IN THE APPEALS COURT. FURTHERMORE, THE STATE ATTORNEY GENERAL'S
OFFICE HAS NO INVOLVEMENT WITH MY CASE!
'NO_COURT'HA'STHE_A'B1UTYTO“PROSECUTE7THAT1S'THE'EXECUTIVE'BRA"N'CH—THT"C0tlRT1S
7.

/.A

THE JUDICIAL BRANCH AND CAN ONLY INTERPRET THE LAW. BY THE DISTRICT ATTORNEY'S
OFFICE NEVER ENTERING THEIR APPEARENCE VIOLATES THE DUE-PROCESS CONTAINED IN THE
14th AMENDMENT, DUE-PROCESS CLAUSE, & EQUAL PROTECTION RIGHTS ARE VIOLATED TO
THE FULLEST.
KINDLY, SEE EXHIBITS A.5, A.6, A.l & A.2 THE EXHIBITS SPEAK FOR THEMSELVES!
NO ONE EVER HAD THEIR RIGHTS DENIED LIKE ME; THEIR IS NO CASE LAW THAT DEALS WITH A
PRESIDENT JUDGE RECUSING THE ENTIRE COUNTY FROM HEARING ANY OF MY CASES &
FAILING TO SEND THE PENDING CASES FOR RE-ASSIGNMENT! KINDLY, REFERENCE TABLE OF
AUTHORITIES.

8.

44-

REASONS FOR GRANTING THE PETITION

FORENSIC PSYCHIATRY, DR. POGOS H. VOSKANIAN, MD MY DEFENSE PSYCHIATRIST CLAIMED
THE INCIDENT WAS IRRESISTIBLE IMPULSE; WHICH WASN'T RECOGNIZED IN THE STATE OF
PENNSYLVANIA. HOWEVER, IT IS RECOGNIZED IN OTHER STATES; INCLUDING VIRGINIA! THAT
CREATES A CLASS OF INDIVIDUALS THAT ARE AFFECTED BY THE LAWS OF THE
COMMONWEALTH OF PA & ALL OTHER STATES THAT DO NOT RECOGNIZE IRRESISTIBLE
• IMPULSE AS A DEFENSE.
DR. POGOS H. VOSKANIAN, MD HAD PRODUCED A 50 PAGE REPORT FOR MY DEFENSE.
HOWEVER, HE NEVER TESTIFIED AT THE HEARING IN NORTHUMBERLAND COUNTY COURT OF
COMMON PLEAS (CRIMINAL DIVISION) CR# 0991-2005.
THEIR ARE MANY INDIVIDUALS THAT HAVE THE IRRESISTIBLE IMPULSE DEFENSE IN-VALID IN
THE STATES THEY RESIDE. I, AM NOT SURE OF THE EXACT NUMBER OF INDIVIDUALS AFFECTED
BY THEIR STATES ACTION NOT TO RECOGNIZE SUCH A DEFENSE.
MY BACKGROUND IS AS FOLLOWS, AT THE TIME OF THE INCIDENT, I WAS THE CURRENT POLICE
CHIEF OF THE BERNVILLE BOROUGH POLICE DEPARTMENT (LOCATED IN BERKS COUNTY). I,
WAS AN OUTSTANDING CITIZEN! MY PUBLIC SAFETY POSITIONS WERE AS FOLLOWS: POLICE
CHIEF OF THE MILLERSTOWN BOROUGH POLICE DEPT(PERRY COUNTY PA), LT. MIFFLIN
BOROUGH POLICE DEPARTMENT, 2ND IN COMMAND PORT ROYAL BOROUGH POLICE DEPT.,
SINCE 1995 TO 2005 I WAS IN THE LAW ENFORCEMENT, OR ARMED GUARD POSITIONS.
MOREOVER, I WAS A LOVING FATHER OF MY 2 GIRLS. WHO STILL TO THIS DATE WON'T
ASSOCIATE WITH ME.
THE 50 PAGE REPORT WAS LOST/STOLEN FROM ME WHEN I WAS AT SCI ALBION. ENCLOSED IS
THE CONTACT INFORMATION FOR POGOS H. VOSKANIAN, MD TELEPHONE# 215-938-7227.
ALSO, www.4DrV.com MR VOSKANIAN IS BASED IN PHILADELPHIA- WITH NATIONWIDE
FORENSIC SERVICES! WHEN CONTACTING VOSKANIAN REFERENCE COMMONWEALTH OF PA
VS. RICHARD C. CURRAN NORTHUMBERLAND COUNTY COURT OF COMMON PLEAS CR#
0991-2005

9.

